October 8, 2021
Danny Bickell
Deputy Clerk for Practice and Procedure
United States Supreme Court
One First Street, NE
Washington, D.C. 20543
Re:

Nehad Abdelnabi v. Fatma Adel Sekik
U.S. Supreme Court No. 21-201

Dear Mr. Bickell:
Please accept this letter as Respondent’s Motion for Extension of Time to respond to
Petitioner’s Petition for Writ of Certiorari. We request this extension based on the
following:
1.

Petitioner has represented that his Brother, Nahed Abdulnabi, intends to file
a Petition for Writ of Certiorari in this matter.

2.

The Tennessee Supreme Court rejected Brother’s Application for
Permission to Appeal on August 4, 2021.

3.

If he files, it should be relatively soon.

4.

Judicial economy would be served by considering the two (2) Petitions at
the same time.

5.

In addition, because they both arise from the same trial court judgment, the
risk of inconsistent results is minimized if the matters are considered
together.

Based on the foregoing, Respondent respectfully requests an extension to thirty (30) days
after Nahed Abdulnabi’s filing and service of his Petition for Writ of Certiorari to file her

Danny Bickell
Page 2

October 8, 2021

Response to the Petition for Writ of Certiorari, or in the alternative, if no further Petition
for Writ of Certiorari is filed, until November 19, 2021.
Sincerely,
Wanda G. Sobieski
Attorney for Respondent, Fatma Adel Sekik
WGS/jng
Enclosure
cc:

Nehad Abdelnabi
Honorable Herbert H. Slatery, III
Fatma Sekik (Via Email)

